No. 19-A106

In the Supreme Court of the United States
__________
TEXAS BRINE COMPANY, L.L.C.,
Applicant,
v.
FLORIDA GAS TRANSMISSION COMPANY, L.L.C., et al.,
Respondents.
__________
TEXAS BRINE COMPANY, L.L.C.,
Applicant,
v.
PONTCHARTRAIN NATURAL GAS SYSTEM, et al.,
Respondents.
__________
TEXAS BRINE COMPANY, L.L.C.,
Applicant,
v.
CROSSTEX ENERGY SERVICES, L.P., et al.,
Respondents.
__________
APPLICATION FOR A FURTHER EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI TO
THE LOUISIANA COURT OF APPEAL, FIRST CIRCUIT

__________
TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE AND CIRCUIT JUSTICE
FOR THE FIFTH CIRCUIT:
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
applicant, Texas Brine Company, L.L.C., respectfully requests a further 30-day
extension of time, to and including October 3, 2019, within which to file a petition for

2
a writ of certiorari to review the judgments of the Louisiana Court of Appeal, First
Circuit. 1
The Louisiana Supreme Court declined to exercise discretionary review over
the judgments of the Court of Appeal on May 6, 2019. See App. Ex. A. On July 24,
2019, Texas Brine requested a 60-day extension of time within which to file a petition
for certiorari. On July 25, 2019, Your Honor granted a 29-day extension of time, to
and including September 3, 2019.
The jurisdiction of this Court will be invoked under 28 U.S.C. § 1257(a).
1. This case arises from an incident that took place in Bayou Corne, Louisiana,
in 2012. A cavern created by the operation of a salt mine by applicant Texas Brine
Company collapsed into a sinkhole that ultimately grew to over forty acres in size,
spurring a multi-year evacuation of the town of Bayou Corne. The ensuing litigation
has embroiled dozens of corporate and governmental parties—along with hundreds
of individuals—and has spanned state, federal, and arbitral forums with hundreds of
millions of dollars at stake.
As the sprawling litigation proceeded through the Louisiana court system,
applicant began to notice an unusual pattern. Louisiana practice allows for
interlocutory writs to review lower-court rulings with the result that dozens of Bayou
Corne-related writs and appeals were filed in the Louisiana Court of Appeal, First
Circuit—the intermediate appellate court with geographic jurisdiction over the

Pursuant to Supreme Court Rule 29.6, applicant states that it has no parent
corporation and that no publicly held company owns 10% or more of its stock.

1

3
incident—during a relatively short period. Louisiana law also mandates random
assignment of cases to appellate judges (see La. Code Civ. Proc. art. 2164.1; La. Rev.
Stat. § 13:319), so one would expect the twelve judges of the Court of Appeal to
participate in the sinkhole cases roughly evenly.
But Judge J. Michael McDonald was appearing in the cases at a truly
disproportionate rate: Of fifty-two Bayou Corne-related appeals as of April 2, 2019,
Judge McDonald found himself on the three-judge panels handling thirty-one; and of
one hundred six single-judge orders issued by First Circuit judges in sinkhole cases,
Judge McDonald signed sixty-six. The odds of these distributions occurring by
random chance—the assignment system required by state law—are astronomically
low: 24.5 million to one and 25.7 tredecillion to one, respectively.
2. Applicant filed motions for Judge McDonald’s recusal and for an
evidentiary hearing, arguing, inter alia, that Judge McDonald’s mathematically
aberrant participation in the sinkhole cases demonstrated an inappropriate interest
and an unacceptable risk of bias under this Court’s decision in Caperton v. A.T.
Massey Coal Co., 556 U.S. 868 (2009), and that the Due Process Clause of the United
States Constitution required a hearing under the circumstances. The Court of Appeal
denied those motions. See App. Ex. B.
3. Applicant sought discretionary review from the Louisiana Supreme Court.
The court initially stayed proceedings in the Court of Appeal while it considered
applicant’s petition but, ultimately, denied the request for discretionary review on
May 6, 2019, without providing reasons. See App. Ex. A. Three of the court’s seven

4
justices dissented; they would have granted review and remanded for an evidentiary
hearing. Ibid.
4. Applicant will demonstrate that certiorari is warranted on at least the
following questions: First, whether a litigant demonstrates an “unconstitutional
potential for bias” under Caperton when it offers proof that a judge is injecting himself
into the litigant’s cases at a rate that is statistically impossible to square with the
random assignment mandated by state law. And, second, whether due process
requires, at a minimum, an evidentiary hearing when a party makes such a threshold
showing of an improper interest.
These questions merit this Court’s review because of the foundational
importance of a neutral and impartial decisionmaker—and of public confidence in
judicial integrity—to the constitutional order. See, e.g., In re Murchison, 349 U.S.
133, 136 (1955) (explaining that “[a] fair trial in a fair tribunal is a basic requirement
of due process” and that the “[i]mportance of the federal constitutional questions
raised” by procedures that undermined impartiality “caused us to grant certiorari”);
Caperton, 556 U.S. at 889 (“The power and the prerogative of a court to perform [its]
function rest, in the end, upon the respect accorded to its judgments. The citizen’s
respect for judgments depends in turn upon the issuing court’s absolute probity.
Judicial integrity is, in consequence, a state interest of the highest order.”) (quoting
Republican Party of Minn. v. White, 536 U.S. 765, 793 (2002) (Kennedy, J.,
concurring)). Certiorari is further warranted by a split in authority as to whether and
when due process requires an evidentiary hearing to explore allegations of judicial

5
impartiality. Compare Clark v. Bd. of Educ. of Indep. Sch. Dist. No. 89, 32 P.3d 851,
854 (Okla. 2001) (“A challenge to an assigned judge for want of impartiality presents
an issue of constitutional dimension which must be resolved and the ruling
memorialized of record after a meaningful evidentiary hearing . . . .”).
4. Good cause exists for a further extension of time to prepare a petition for a
writ of certiorari in this case. Undersigned counsel of record was retained to represent
applicant shortly before the first motion for an extension of time was filed. Counsel
has been working diligently on the petition, but has, and has had, several other
matters with proximate due dates, including: a merits brief filed on August 6, 2019,
in Kansas v. Garcia, No. 17-834 (S. Ct.); a merits brief due on August 29, 2019 in
Guerrero-Lasprilla v. Barr, No. 18-776 (S. Ct.), and Ovalles v. Barr, No. 18-1015 (S.
Ct.); a petition for rehearing en banc filed on July 23, 2019, in GN Netcom, Inc. v.
Plantronics, Inc., No. 18-1287 (3d Cir.); a motion for summary judgment filed on July
10, 2019, and a reply in support filed on August 21, 2019, in Vanda Pharmaceuticals
v. FDA, No. 19-cv-301 (D.D.C.); and a motion to dismiss filed on August 13, 2019 in
United States ex rel. Gardner v. Vanda Pharmaceuticals, No. 17-cv-464 (D.D.C.).
For the foregoing reasons, the application for a 30-day extension of time, to and
including October 3, 2019, within which to file a petition for a writ of certiorari in this
case should be granted.

6

August 23, 2019

Respectfully submitted.

____________________________
PAUL W. HUGHES
Counsel of Record
McDermott Will & Emery LLP
500 North Capitol Street, NW
Washington, DC 20001
(202) 756-8000
phughes@mwe.com
JAMES M. GARNER
JOSHUA S. FORCE
Sher Garner Cahill
Richter Klein & Hilbert, LLC
909 Poydras Street
28th Floor
New Orleans, LA 70112
(504) 299-2102

